No. 20-6386
OCTOBER TERM, 2020
In The Supreme Court Of The United States
James Walker, Petitioner,
v.
William Gittere, Warden, et al., Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Nevada

PROOF OF SERVICE

CAPITAL CASE
RENE L. VALLADARES
Federal Public Defender of Nevada
JOANNE L. DIAMOND*
MARTIN L. NOVILLO

*Counsel of Record

ASSISTANT FEDERAL PUBLIC
DEFENDERS
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)

I hereby declare that on 11th day of February, 2021, I served this Petitioner’s
Reply to Respondent’s Brief in Opposition to Petition for Writ of Certiorari on the
State of Nevada via US Mail, to Jonathan VanBoskerck, Clark County Deputy
District Attorney, 200 Lewis Avenue, Las Vegas, NV 89101.
Respectfully submitted,
Rene Valladares
Federal Public Defender of Nevada

/s/ Joanne L. Diamond

JOANNE L. DIAMOND*
*Counsel of record
Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Joanne_Diamond@fd.org

2

